     Department of Homeland Security




       FEMA Public Assistance Grant Funds Awarded to 

     St. Tammany Parish Sheriff’s Office, Slidell, Louisiana 





DD-12-18                                           August 2012

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                               Washington, DC 205281 www.oig.dhs.gov




                                     AUG 2 7 2012


MEMOHANDUM fOR :               George A. Robinson




FROM:




SUBJECT:                       FEMA Public Assistance Grant Funds Awarded to
                               St. Tammany Parish Sheriff's Office, Slidell, Louisiana
                               FEMA Disaster Numbers 1603-, 1607-, and 1786-DR-lA
                               Audit Report Number 00-12-18

We audited public assistance grant funds awarded to the St. Tammany Parish Sheriff's
Office (Sheriff), Slidell, Louisiana (Public Assistance Identification Number 103-033FE-DO).
Our audit objective was to determine whether the Sheriff accounted for and expended
Federal Emergency Management Agency (FEMA) grant funds according to Federal
regulations and FEMA guidelines.

The Governor's Office of Homeland Security and Emergency Preparedness (GOHSEP), a
FEMA grantee, awarded the Sheriff $5.09 million for damages resulting from Hurricane
Katrina (1603-DR-LA), which occurred on August 29, 2005; Hurricane Rita (1607-DR-lA),
which occurred on September 23, 2005; and Hurricane Gustav (1786-DR-LA), which
occurred on September 1, 2008. Table 1 presents specific information for each disaster.
The audit covered the period August 27, 2005, through October 12, 2011, the cutoff
date of our audit, and included a review of $5.09 million, or 100 percent ofthe total
award (see exhibits A, B, and C).
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


                               Table 1. Disaster-Specific Information

                                                        Large          Small                     Federal
                        Disaster      Amount          Projects 1    Projects                       Cost
         Disaster       Number        Awarded        Awarded        Awarded                       Share
        Hurricane
         Katrina          1603             $3,254,002             11                26            100%
        Hurricane
           Rita           1607                 866,645             2                 0            100%
        Hurricane
         Gustav           1786                 970,969             2                 4             90%

          Totals                           $5,091,616             15                30

We conducted this audit between October 2011 and April 2012 pursuant to the Inspector
General Act of 1978, as amended, and according to generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based
upon our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based upon our audit objective. We conducted this audit
according to the statutes, regulations, and FEMA policies and guidelines in effect at the time
of the disasters.

We interviewed FEMA, GOHSEP, and Sheriff officials and performed other procedures
considered necessary to accomplish our objective. We did not assess the adequacy of the
Sheriff’s internal controls applicable to grant activities because it was not necessary to
accomplish our audit objective. We did, however, gain an understanding of the Sheriff’s
method of accounting for disaster-related costs.


                                             RESULTS OF AUDIT

The Sheriff did not account for and expend FEMA grant funds according to Federal
regulations and FEMA guidelines. The Sheriff claimed unsupported and ineligible costs and
did not obtain and maintain insurance for vehicles. As a result, we question costs totaling
$2,468,002 for Hurricanes Katrina, Rita, and Gustav, or 48 percent of the Sheriff’s total
award for these three disasters (see table 2).




1
 Federal regulations in effect at the time of the disasters set the large project threshold at $55,500 for
Hurricane Katrina and Hurricane Rita, and $60,900 for Hurricane Gustav.

    www.oig.dhs.gov                                      2                                            DD-12-18
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


                               Table 2. Summary of Questioned Costs

                                                                Ineligible
                                      Amount     Unsupported      Costs                Total
                         Disaster    Awarded         Costs      (Findings            Questioned
          Disaster       Number      (Millions)   (Finding A)     B&C)                 Costs
         Hurricane
          Katrina          1603         $3,254,002         $ 844,248      $658,568   $1,502,816
         Hurricane
            Rita           1607            866,645             336,654          0       336,654
         Hurricane
          Gustav           1786             970,969            628,532          0       628,532

           Totals                       $5,091,616         $1,809,434     $658,568   $2,468,002

In addition, FEMA should deobligate and put to better use $49,487 ($49,302 Federal share)
in Federal funds that exceeded the actual amounts the Sheriff incurred and claimed for
certain projects. Generally, these findings occurred because GOHSEP, as the grantee, did not
effectively execute its responsibilities under these grants.

Finding A: Unsupported Labor Costs

The Sheriff could not provide adequate documentation to support claimed force account
labor costs totaling $1,809,434; therefore, we question these costs as unsupported.
According to 44 CFR 13.20(b)(2), grantees and subgrantees must maintain records that
adequately identify the source and application of funds provided for financially-assisted
activities. Additionally, 44 CFR 13.20(b)(6) provides a list of specific source documentation,
including canceled checks, paid bills, payrolls, and time and attendance records, that is
acceptable as supporting documentation for accounting records. Cost principles at
2 CFR 225, Appendix A, section C.1.j., 2 reinforce this requirement by stating that claimed
costs must be adequately documented to be allowable for Federal awards.

At the October 2011 entrance conference, Sheriff officials informed us that the spreadsheets
they used to record employee labor contained miscalculations in regular time and overtime.
We reviewed the Sheriff’s labor records, but they did not contain sufficient evidence to
determine whether the work performed was for disaster-related activities or for regular
duties. We could determine the disaster-related activities that Sheriff’s personnel
performed on any given day, but the records did not name the personnel involved, and
timesheets for individuals did not specifically identify the activities performed.



2
    OMB Circular A-87 was moved to 2 CFR 225 effective August 31, 2005.

     www.oig.dhs.gov                                   3                                 DD-12-18
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



We discussed this issue with Sheriff’s officials again on February 1 and 23, 2012. They said
that they were not aware of the level of detail required to support labor costs, but were
working on recalculating these costs. However, as of August 1, 2012, Sheriff officials had not
completed their recalculations and could not provide us with an estimated completion date.

We also discussed this issue with FEMA officials on February 14, 2012, and with GOHSEP
officials on February 16, 2012. FEMA officials said that guidance was provided to the
applicant on the submission of force account labor. GOHSEP officials acknowledged that the
Sheriff was in the process of recalculating force account labor costs.

Finding B: Ineligible Costs

The Sheriff claimed $418,847 for helicopter services under Hurricane Katrina Project 16775.
The project’s scope of work was to assist with emergency operations for search and rescue
and to transport emergency personnel and supplies. However, the daily flight manifests for
the helicopter services described activities that were outside the project’s scope of work,
such as surveillance and patrol, and named customers and destinations that were not related
to the Sheriff. Therefore, we question $418,847 as ineligible because the associated
activities were not authorized (within the scope of work) and, in part, represented activities
covered by the Sheriff’s administrative allowance.

Cost principles at 2 CFR 225, Appendix A, section C.1.c., state that costs must be authorized
or not prohibited by State or local law to be allowable for Federal awards. In addition,
44 CFR 206.228(b)(2) states that the subgrantee’s administrative allowance covers the
necessary costs of requesting, obtaining, and administering Federal disaster grants
assistance. Regarding the administrative allowance, FEMA’s Public Assistance Guide (FEMA
322, October 1999, p. 41) states that the costs of identifying disaster damages (i.e.,
surveillance) is an example of the type of activity that the administrative allowance is
intended to cover. A later version of the FEMA 322 (June 2007, p. 63) cites specific examples
of identifying damage as “photographs and flyovers of damaged areas.”

The invoices for helicopter services read “Recovery, Search & Rescue and Surveillance,” and
most lines listed two different aircraft models with one combined daily rate for the two
aircraft. However, the invoices did not provide sufficient documentation to determine the
costs associated with each individual aircraft. We discussed this issue with Sheriff officials on
February 1, 2012, and they provided daily flight manifests, which we compared with the
invoice for each date of service. The manifests identified customers (such as a neighboring
city or unknown vendor) and destinations (such as a neighboring parish or city) that were not
related to the Sheriff. The manifests also listed the purpose of each flight, which consistently
did not agree with the project’s scope of work. For example, there were manifests for


  www.oig.dhs.gov                              4                                     DD-12-18
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


relocating Federal personnel, delivering supplies to other surrounding communities, and
transporting a film crew. We cannot determine why the Sheriff claimed these costs, which
were not related to the approved scope of work. At the exit conference, Sheriff officials said
that they thought the project covered ongoing operations.

We discussed these issues with FEMA officials on February 14, 2012, and with GOHSEP
officials on February 16, 2012. These officials acknowledged our concerns. GOHSEP officials
requested copies of the daily flight manifests, saying that other applicants may have claimed
costs for the same services.

Finding C: Insufficient Insurance Coverage

The Sheriff did not obtain and maintain insurance required as a condition for receiving
Federal disaster assistance. As a result, the Sheriff may not have adequate insurance
coverage the next time disaster strikes. The Sheriff claimed $239,721 under Hurricane
Katrina Project 334 for the purchase of 10 trucks, but has not obtained insurance for them.
Therefore, we question these costs as ineligible.

Section 311 of the Robert T. Stafford Disaster Relief and Emergency Assistance Act, Public
Law 93-288, as amended, requires recipients of disaster assistance to obtain and maintain
such types and extent of insurance “as may be reasonably available, adequate, and
necessary, to protect against future loss,” which applies to “any property to be replaced,
restored, repaired, or constructed with such assistance.” Further, the FEMA Public
Assistance Guide (FEMA 322, October 1999, p. 97) states that (1) as a condition for receiving
public assistance for a facility, an applicant must obtain and maintain insurance to cover that
facility for the hazard that caused the damage; and (2) such coverage must, at minimum, be
in the amount of the estimated eligible project costs for that structure before any reduction.

FEMA wrote the project as a Category E project (Buildings and Equipment) “to replace
damaged equipment and provide additional equipment to further support post event search
and rescue operations.” Replacing damaged equipment is appropriate for Category E, but
search and rescue operations are not and should have been authorized under a Category B
(Emergency Protective Measures) project. The Sheriff used the $239,721 to purchase
10 trucks: 3 trucks that replaced those damaged by the storm, and 7 trucks used in search
and rescue activities.

Response and Recovery Directorate Policy Number 9525.12, published August 29, 2000,
states that the grantee or subgrantees may be required to compensate FEMA for the fair
market value of the cost of the equipment when the items are no longer needed for a
disaster. However, the Sheriff did not compensate FEMA for the value of the seven trucks
after they were no longer needed for search and rescue activities, and continues to use the


  www.oig.dhs.gov                              5                                    DD-12-18
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


trucks for its normal activities almost 7 years after the disaster. Therefore, it appears that
the Sheriff has assumed ownership of the vehicles and, therefore, should have obtained and
maintained insurance not only for the three replacement trucks, but also for the seven
trucks it continues to use.

We discussed these issues with FEMA on February 14, 2012. FEMA officials agreed that the
seven vehicles should have been written under a Category B project. They also said that
Sheriff officials were still using the vehicles. FEMA provided a written response to us stating
that (1) three of the vehicles were replacement vehicles and should not have any salvage
associated with them; and (2) the other seven vehicles should be deobligated from Project
334 and written as a Category B project. FEMA also stated that the seven vehicles will either
have to be written as a purchase with salvage value due back to FEMA, or written for
equipment usage (force account equipment).

As a result, FEMA should disallow $239,721 under Hurricane Katrina as ineligible costs unless
the Sheriff obtains and maintains insurance for the ten vehicles purchased. An alternative
would be for FEMA to (1) disallow the costs for the purchase of three trucks unless the
Sheriff obtains and maintains insurance on them and (2) require the Sheriff to remit the
salvage value of the other seven trucks used for search and rescue based upon the market
value at the time that the vehicles were no longer needed for the disaster.

Sheriff’s officials did not obtain and maintain the required insurance because they did not
familiarize themselves with the insurance requirements that were clearly delineated in the
general comments section of the project worksheet. When we discussed this issue with
them on February 1, 2012, they said that they will request a waiver for insurance and will
present their request to GOHSEP. On February 16, 2012, we discussed this issue with
GOHSEP officials, who responded that the Sheriff is working on requesting an insurance
waiver. However, GOHSEP should have verified insurance coverage before allowing the
Sheriff to claim or receive funding for the vehicles, because insurance was a condition of
funding.

Finding D: Unused Federal Funds

GOHSEP did not perform timely closeouts of projects the Sheriff completed. As a result,
$49,487 of Federal funds ($49,302 Federal share) obligated for Hurricanes Katrina and
Gustav remained unused. There were no unused funds for Hurricane Rita. The amounts that
FEMA estimated and approved for two Hurricane Katrina projects exceeded the amounts
that the Sheriff claimed for completing the projects by $47,641 (see exhibit A). In addition,
the amount that FEMA estimated and approved for one Hurricane Gustav project exceeded
the amount that the Sheriff claimed for completing the project by $1,846 ($1,661 Federal
share) (see exhibit C). Therefore, FEMA should deobligate $49,487 of unused Federal funds


  www.oig.dhs.gov                              6                                    DD-12-18
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


($47,641 from two Hurricane Katrina projects and $1,846 from one Hurricane Gustav
project).

Sheriff’s officials said they had completed all large projects and claimed all costs for
Hurricane Katrina by January 2006; Hurricane Rita by November 2005; and Hurricane Gustav
by September 2008. According to 44 CFR 206.205(b)(1), grantees are required to submit an
accounting of eligible costs for each large project “as soon as practicable after the
subgrantee has completed the approved work and requested payment.”

We consider 6 months after the subgrantee has completed the approved work and
requested payment a reasonable amount of time for the grantee to complete its reviews of
costs claimed and submit an accounting of eligible costs to FEMA. Without timely closeouts,
Federal funds remain obligated as a liability against FEMA’s appropriated funds and can limit
FEMA’s ability to authorize other disaster assistance projects. For example, in September
2011, FEMA’s ability to fund disaster assistance projects for Hurricane Irene was delayed
until FEMA deobligated unneeded funds from existing disaster assistance projects.
Therefore, FEMA should require GOHSEP to submit closeout documentation for the Sheriff’s
projects under all three disasters as soon as practicable so that FEMA can perform final
closeouts of the Sheriff’s projects and put unused Federal funds to better use.

Finding E: Grant Management

The majority of findings in this report occurred because GOHSEP, as the grantee, should have
better managed its responsibilities under its grant. According to 44 CFR 13.37(a)(2), the
grantee is required to ensure that subgrantees are aware of requirements imposed on them
by Federal regulations. Further, 44 CFR 13.40(a) requires the grantee to manage the day-to­
day operations of subgrant activity and monitor subgrant activity to assure compliance with
applicable Federal requirements.

As discussed in finding D, GOHSEP has not submitted closeout documentation for the
Sheriff’s projects. The Sheriff completed all large projects and claimed all costs for Hurricane
Katrina by January 2006; Hurricane Rita by November 2005; and Hurricane Gustav by
September 2008. Although $49,487 remains unused for these three disasters, the larger
effect of GOHSEP’s delay in closing these projects is the burden placed on the Sheriff to
maintain adequate documentation for costs incurred 4 to 7 years ago.

In addition, as stated in finding C, although the Sheriff should have known about FEMA’s
insurance requirements, GOHSEP should have verified insurance coverage before allowing
the Sheriff to claim or receive funding for the vehicles because insurance was a condition of
funding. It is not enough for GOHSEP to merely advise subgrantees of Federal regulations.
Consistent with the Code of Federal Regulations, GOHSEP must manage the day-to-day


  www.oig.dhs.gov                              7                                     DD-12-18
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


operations of subgrant activity and monitor subgrant activity to assure compliance with
applicable Federal requirements.

As of April 11, 2012, FEMA had approved $348 million in management fees to GOHSEP for
managing the $11.7 billion in approved grant funds to the State of Louisiana for Hurricanes
Katrina, Rita, and Gustav. Although we are not commenting on the overall reasonableness of
these management fees, we point out that FEMA is paying GOHSEP to manage these
disasters and should, therefore, require GOHSEP, as the grantee, to develop and implement
procedures to better manage its responsibilities under these grants.

Other Matters

GOHSEP overpaid the Sheriff a total of $147,221 on six Hurricane Katrina projects. These
overpayments occurred because, after GOHSEP reimbursed the Sheriff for costs claimed,
FEMA reduced (deobligated) some or all of the approved funding for the six projects for
various reasons, as explained in table 3.

                Table 3. GOHSEP Overpayments – Hurricane Katrina
        Project Amount
        Number Overpaid                Reason for Deobligation
                          Scope of work realigned from purchase of vehicles to
          181   $ 41,788 force account equipment
                          Costs covered under a Department of Corrections
          551      9,021 grant
           555         5,108 Disallowed costs claimed for wrong disaster
                             Costs covered under a Department of Corrections
           583        43,160 grant
          1162         2,197 Disallowed costs for ineligible work
          1505        45,947 Disallowed costs claimed for wrong disaster
          Total     $147,221

These payments did not reduce authorized FEMA funding, and we do not question these
costs. However, GOHSEP should collect the overpayments totaling $147,221 so it can fund
other projects.




  www.oig.dhs.gov                            8                                   DD-12-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                     RECOMMENDATIONS 


We recommend that the Acting Regional Administrator, FEMA Region VI:

Recommendation #1: Disallow $844,248 under Hurricane Katrina and $336,654 under
Hurricane Rita for unsupported force account labor unless the Sheriff can provide adequate
documentation to support these costs (finding A).

Recommendation #2: Disallow $628,532 ($565,679 Federal share) under Hurricane Gustav
for unsupported force account labor unless the Sheriff can provide adequate documentation
to support these costs (finding A).

Recommendation #3: Disallow $418,847 under Hurricane Katrina as ineligible costs for
helicopter services or provide proof that flight services billed were for eligible work related
to the Sheriff (finding B).

Recommendation #4: Disallow $239,721 under Hurricane Katrina as ineligible costs unless
the Sheriff obtains and maintains insurance for the 10 vehicles purchased. An alternative
would be for FEMA to (1) disallow the costs for the purchase of three trucks unless the
Sheriff obtains and maintains insurance on them and (2) require the Sheriff to remit the
salvage value of the other seven trucks used for search and rescue based upon the market
value at the time the vehicles were no longer needed for the disaster (finding C).

Recommendation #5: Deobligate $47,641 of unused Federal funds awarded for Hurricane
Katrina and put those funds to better use (finding D).

Recommendation #6: Deobligate $1,846 ($1,661 Federal share) of unused Federal funds
awarded for Hurricane Gustav and put those funds to better use (finding D).

Recommendation #7: Require GOHSEP to submit closeout documentation for the Sheriff’s
projects under all three disasters as soon as practicable (finding D).


                 DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with FEMA, GOHSEP, and Sheriff’s officials during our
audit and included their comments in this report, as appropriate. We also provided a draft
report in advance to FEMA, GOHSEP, and Sheriff officials and discussed it at exit conferences
held with them on April 20, 2012. FEMA officials generally agreed with our findings and
recommendations. GOHSEP officials generally agreed with finding C and disagreed with our



  www.oig.dhs.gov                               9                                     DD-12-18
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


other findings and recommendations. Sheriff’s officials disagreed with all of our findings and
recommendations.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible
parties and any other supporting documentation necessary to inform us about the current
status of the recommendation. Until your response is received and evaluated, the
recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Significant contributors to this report were Tonda Hadley, Judy Martinez, Susan Stipe,
Rodney Johnson and Dwight McClendon.

Please call me with any questions at (202) 254-4100, or your staff may contact Tonda Hadley,
Director, Central Regional Office, at (214) 436-5200.




  www.oig.dhs.gov                            10                                    DD-12-18
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                                                        EXHIBIT A 

                                Schedule of Projects Audited

                          August 27, 2005, Through October 12, 2011

                     St. Tammany Parish Sheriff’s Office, Slidell, Louisiana

                             FEMA Disaster Number 1603-DR-LA


                                                           Insufficient                   Unused
                          Unsupported       Ineligible      Insurance        Total        Federal
Project      Award            Costs           Costs         Coverage        Amount         Funds
Number      Amount         (Finding A)     (Finding B)     (Finding C)    Questioned    (Finding D)
  200      $ 760,238           $760,238       $        0      $       0    $ 760,238        $     0
  334         269,408                  0               0       239,721        239,721        23,342
  833          87,193                  0               0              0             0        24,299
 1505          84,010            84,010                0              0        84,010             0
 16775        418,847                  0       418,847                0       418,847             0
 Other
Projects    1,634,306                0               0              0              0             0
TOTALS     $3,254,002         $844,248        $418,847       $239,721     $1,502,816       $47,641




   www.oig.dhs.gov                             11                                   DD-12-18
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                                                               EXHIBIT B 

                             Schedule of Projects Audited

                     September 23, 2005, Through October 12, 2011

                  St. Tammany Parish Sheriff’s Office, Slidell, Louisiana

                          FEMA Disaster Number 1607-DR-LA




                                                  Unsupported
                           Project     Award          Costs
                           Number     Amount       (Finding A)
                            4702      $ 92,073        $       0
                            4707       774,572          336,654
                          Totals      $866,645        $336,654




www.oig.dhs.gov                             12                               DD-12-18
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                                                                     EXHIBIT C

                             Schedule of Projects Audited

                       August 29, 2008, Through October 12, 2011

                  St. Tammany Parish Sheriff’s Office, Slidell, Louisiana

                          FEMA Disaster Number 1786-DR-LA


                                          Federal Share
                                               of             Unused         Federal Share
                         Unsupported      Unsupported         Federal          of Unused
 Project      Award          Costs            Costs            Funds         Federal Funds
 Number      Amount       (Finding A)      (Finding A)      (Finding D)       (Finding D)
  02230      $ 1,966         $       0         $       0         $     0            $     0
  02269         5,626                0                 0               0                  0
  02590        28,987                0                 0               0                  0
  02698       778,811         591,388           532,249                0                  0
  02824        16,613                0                 0               0                  0
  03721       138,966          37,144             33,430           1,846              1,661
Totals       $970,969        $628,532          $565,679          $1,846             $1,661




www.oig.dhs.gov                             13                                     DD-12-18
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                                                                  EXHIBIT D 

                                   Report Distribution List

                      St. Tammany Parish Sheriff’s Office, Slidell, Louisiana

                     FEMA Disaster Numbers 1603-, 1607-, and 1786-DR-LA


Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region VI
Audit Liaison, FEMA (Job Code G-11-070)
Executive Director, FEMA Louisiana Recovery Office

Grantee

Louisiana Governor’s Office of Homeland Security and Emergency Preparedness

State

Louisiana Legislative Auditor

Subgrantee

St. Tammany Parish Sheriff’s Office




   www.oig.dhs.gov                             14                                DD-12-18
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
